   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




December 13, 2010

TO:            Yolanda J. Butler, Ph.D.
               Acting Director
               Office of Community Services
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Community Services Agency
               (A-09-10-01010)


The attached final report provides the results of our limited scope review at Community Services
Agency. Pursuant to the American Recovery and Reinvestment Act of 2009 (P.L. No. 111-5),
the Office of Inspector General (OIG) provides oversight of covered funds to prevent fraud,
waste, and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-09-10-01010
in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 RESULTS OF LIMITED SCOPE
  REVIEW AT COMMUNITY
     SERVICES AGENCY

         RENO, NEVADA




                      Daniel R. Levinson
                       Inspector General

                        December 2010
                        A-09-10-01010
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was reauthorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. No.
105-285, to provide funds to alleviate the causes and conditions of poverty in communities.
Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Community Services, administers the CSBG program. The CSBG
program funds a State-administered network of more than 1,000 local Community Action
Agencies (CAA) that create, coordinate, and deliver programs and services to low-income
Americans. These programs address employment, education, housing, nutrition, emergency
services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. Recovery Act funds are
distributed to CAAs using the existing statutory formula.

The Nevada Department of Health and Human Services (State agency) acts as the lead agency
for purposes of carrying out State activities for the CSBG program. The State agency is
responsible for approving the State’s CAA Recovery Act grant applications and monitoring
CAAs’ compliance with program regulations. The State agency was awarded $5 million in
Recovery Act funds for Nevada’s CSBG program.

Community Services Agency (CSA) is a nonprofit organization in Reno, Nevada, and primarily
provides services in northern Nevada to help poor individuals and families. CSA develops and
operates education, employment, health, housing, community revitalization, emergency
assistance, and referral service programs that are designed to improve self-sufficiency. During
fiscal year (FY) 2009, the State agency awarded CSA $603,382 in CSBG funds and $892,056 in
Recovery Act funds, totaling $1,495,438. For FY 2009, CSA received total Federal grant awards
of approximately $8.9 million.

OBJECTIVE

Our objective was to assess CSA’s financial viability, capacity to manage and account for
Federal funds, and capability to operate its CSBG program in accordance with Federal
regulations.

SUMMARY OF FINDINGS

Based on our assessment, CSA is financially viable, has the capacity to manage and account for
Federal funds, and is capable of operating its CSBG program in accordance with Federal
regulations. However, we noted weaknesses related to (1) performance incentive awards,
(2) subsidized wages funded by the Recovery Act, (3) Recovery Act reporting, and
(4) composition of the board of directors.



                                               i
RECOMMENDATIONS

We recommend that ACF consider the information presented in this report in assessing CSA’s
ability to operate its CSBG program in accordance with Federal regulations and in determining
whether CSA is appropriately managing and accounting for Recovery Act funds. We also
recommend that ACF obtain from CSA documentation supporting the allowability of $72,175 of
performance incentive awards and $58,466 of subsidized wages paid.

COMMUNITY SERVICES AGENCY COMMENTS

In written comments on our draft report, CSA provided information on actions that it had taken
since our review and additional information related to the findings. Regarding the finding
related to subsidized wages, CSA stated that before payment of any invoices, CSA received
employer information that included dates and hours worked for each subsidized employee.
Regarding the finding related to Recovery Act reporting, CSA said that we were inaccurate in
stating that 15 persons whose wages were not funded by the Recovery Act were included in
CSA’s Recovery Act report. CSA stated that it was instructed by the State agency to report all
persons receiving a subsidy under any and all Recovery Act programs. CSA’s comments are
included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in CSA’s comments caused us to change our findings or our recommendation to ACF.
Although CSA’s employer invoices contained time periods and total hours worked, the invoices
did not contain signatures of either individual employees or a responsible official. As a result,
we do not consider the invoices sufficient for documenting the hours worked or the gross pay
that each employee received. In addition, according to the State agency, only persons whose
wages were subsidized by CSBG program funds made available under the Recovery Act were to
be included in the Recovery Act report.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Community Services Block Grant Program ..................................................1
              Nevada Department of Health and Human Services .....................................1
              Community Services Agency .......................................................................1
              Requirements for Federal Grantees ...............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          PERFORMANCE INCENTIVE AWARDS .............................................................3

          SUBSIDIZED WAGES FUNDED BY THE RECOVERY ACT .............................4

          RECOVERY ACT REPORTING..............................................................................5

          COMPOSITION OF BOARD OF DIRECTORS ......................................................5

          RECOMMENDATIONS ...........................................................................................6

          COMMUNITY SERVICES AGENCY COMMENTS .............................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................6

APPENDIX

          COMMUNITY SERVICES AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was reauthorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. No.
105-285 (CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services (HHS), the
Administration for Children and Families (ACF), Office of Community Services, administers the
CSBG program. The CSBG program funds a State-administered network of more than 1,000
local Community Action Agencies (CAA) that create, coordinate, and deliver programs and
services to low-income Americans. These programs address employment, education, housing,
nutrition, emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. Recovery Act funds are
distributed to CAAs using the existing statutory formula.

Nevada Department of Health and Human Services

The Nevada Department of Health and Human Services (State agency) acts as the lead agency
for purposes of carrying out State activities for the CSBG program. The State agency is
responsible for approving the State’s CAA Recovery Act grant applications and monitoring
CAAs’ compliance with program regulations. The State agency was awarded $5 million in
Recovery Act funds for Nevada’s CSBG program.

Community Services Agency

Community Services Agency (CSA) is a nonprofit organization in Reno, Nevada, and primarily
provides services in northern Nevada to help poor individuals and families. CSA develops and
operates education, employment, health, housing, community revitalization, emergency
assistance, and referral service programs that are designed to improve self-sufficiency. During
fiscal year (FY) 2009, the State agency awarded CSA $603,382 in CSBG funds and $892,056 in
Recovery Act funds, totaling $1,495,438. For FY 2009, CSA received total Federal grant awards
of approximately $8.9 million.

Requirements for Federal Grantees

Pursuant to 2 CFR part 215 and 45 CFR part 74, grantees of Federal awards must implement
written accounting policies and procedures and maintain financial systems that provide for
accurate and complete reporting of grant-related financial data, effective control over grant
funds, and allocation of costs to all benefiting programs. In addition, grantees must establish



                                                 1
written procurement procedures. Grantees are also required to maintain inventory control
systems and take periodic physical inventory of grant-related equipment.

Pursuant to 2 CFR § 215.27 and 45 CFR § 74.27, the allowability of costs incurred by nonprofit
organizations is determined in accordance with the provisions of 2 CFR part 230, Cost Principles
for Nonprofit Organizations. The CSBG Act establishes the CSBG program and sets the
requirements and guidelines for CSBG funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess CSA’s financial viability, capacity to manage and account for
Federal funds, and capability to operate its CSBG program in accordance with Federal
regulations.

Scope

We conducted a limited review of CSA’s financial viability, financial management system, and
related policies and procedures. Therefore, we did not perform an overall assessment of CSA’s
internal control structure. Rather, we reviewed only the internal controls that pertained directly
to our objective. Our review period was FY 2009 (July 1, 2009, through June 30, 2010).

We performed our fieldwork at CSA’s administrative office in Reno, Nevada, in July 2010.

Methodology

To accomplish our objective, we:

   •    confirmed that CSA is not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed CSA’s application for and implementation of the grant awards for Recovery
        Act funding;

   •    reviewed the findings related to the most recent State agency review of CSA’s
        compliance with Federal and State CSBG requirements;

   •    reviewed CSA’s financial and accounting policies and procedures;

   •    reviewed CSA’s personnel policies and procedures;

   •    reviewed CSA’s bylaws, minutes from the board of director meetings, composition of the
        board of directors, and organizational chart;



                                                 2
    •   performed audit steps to assess the adequacy of CSA’s current financial systems;

    •   reviewed CSA’s audited financial statements for the periods April 1, 2006, through
        March 31, 2007; April 1, 2007, through March 31, 2008; and April 1, 2008, through
        March 31, 2009;

    •   interviewed CSA’s programs manager to gain an understanding of (1) the implementation
        of CSBG employment programs funded by the Recovery Act and (2) Recovery Act
        reporting;

    •   reviewed 12 client case files for supporting documentation for income eligibility and
        CSBG services provided;

    •   reviewed 7 Subsidy Wage Agreements between CSA and employers to ensure that each
        agreement contained the list of individuals placed with the employer by CSA and that the
        agreement was signed; 1

    •   reviewed supporting documentation for 6 disbursements funded by the Recovery Act;
        and

    •   reviewed CSA’s Recovery Act reports for the CSBG program for the period January 1
        through June 30, 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                            FINDINGS AND RECOMMENDATIONS

Based on our assessment, CSA is financially viable, has the capacity to manage and account for
Federal funds, and is capable of operating its CSBG program in accordance with Federal
regulations. However, we noted weaknesses related to (1) performance incentive awards,
(2) subsidized wages funded by the Recovery Act, (3) Recovery Act reporting, and
(4) composition of the board of directors.

PERFORMANCE INCENTIVE AWARDS

Pursuant to 2 CFR part 230, Appendix B, section 8.j.: “Incentive compensation to employees
based on cost reduction, or efficient performance … are allowable to the extent that the overall
compensation is determined to be reasonable and such costs are paid or accrued pursuant to an

1
 A Wage Subsidy Agreement contained the portion of the employee wages that CSA would subsidize. The
Recovery Act funded the portion of the employee wages paid by CSA.



                                                    3
agreement entered into in good faith between the organization and the employees before the
services were rendered, or pursuant to an established plan followed by the organization so
consistently as to imply, in effect, an agreement to make such payment.”

HHS’s Grants Policy Statement, Exhibit 4, states that incentive awards are “[a]llowable for
employees as part of a total compensation package, provided such payments are reasonable and
are made according to a formal policy of the recipient that is consistently applied regardless of
the source of funds.”

During FY 2009, CSA paid 62 performance incentive awards totaling $72,175. The organization
paid 31 awards in November 2009 and 31 awards in March 2010. The total award for each
employee ranged from a high of $14,950 to a low of $50. However, CSA did not have any
records that documented the justification or approval of the awards paid.

In support of the awards, CSA management told us that its board of directors had approved a
performance incentive plan. However, according to CSA, this document was archived and not
readily available. CSA management provided to us an internal policy document that stated:
“CSA may offer performance awards to reward employees who have excelled in the
performance of their jobs or who have met extremely tight and important deadlines …. The
Executive Director must approve all awards in advance of any commitment extended to any
employee or any applicant.” However, this policy was not dated or signed.

Because CSA was unable to provide documentation supporting the $72,175 of performance
incentive awards, we are setting aside this amount for ACF’s determination of allowability.

SUBSIDIZED WAGES FUNDED BY THE RECOVERY ACT

Pursuant to 2 CFR § 215.21(b)(3), grantees’ financial management systems shall provide
effective control over and accountability for all funds. In addition, 2 CFR part 230, Appendix A,
section A.2.g., states that for a cost to be allowable, it must be adequately documented.

CSA’s Wage Subsidy Agreement, section 2, states that the employer will “provide CSA with a
brief back-up accounting which shall include timesheets or other time records which support the
gross pay that the Employee received during the invoiced period.”

CSA did not have adequate support for disbursements of subsidized wages funded by the
Recovery Act. CSA paid the wages based upon employers’ invoices, which were not
accompanied by timesheets or other time records that supported the gross wages paid to
employees.

As of June 30, 2010, CSA had paid $58,466 of subsidized wages to employers, consisting of
$44,839 for the Adult Employment Program and $13,627 for the Youth Employment Program.
Because CSA was unable to provide adequate support for the $58,466 of subsidized wages, we
are setting aside this amount for ACF’s determination of allowability.




                                                4
RECOVERY ACT REPORTING

On December 18, 2009, the Office of Management and Budget issued updated guidance on
grantees’ reporting of the use of Recovery Act funds. Memorandum M-10-08, section 5.2.4.,
states: “In calculating an FTE [full-time equivalent], the number of actual hours worked in
funded jobs are divided by the number of hours representing a full work schedule for the kind of
job being estimated. These FTEs are then adjusted to count only the portion corresponding to
the share of the job funded by Recovery Act funds.”

The State agency’s reporting instructions for the Recovery Act Job Creation/Job Retention
Tracking Form state the following: “Enter the number of hours the individual has worked this
quarter.”

CSA did not have adequate procedures or controls to ensure that information it reported to the
State agency on the State’s Job Creation/Job Retention Tracking Form was accurate or
verifiable:

   •   CSA’s Recovery Act report for the quarter ended June 30, 2010, included 476 hours for
       15 persons whose wages were not funded by the Recovery Act. As a result, CSA
       overstated its estimate of the number of jobs created under the Recovery Act by
       0.9 full-time equivalent.

   •   CSA did not report actual hours worked by clients it helped place into employment but
       rather the estimated hours that CSA expected the clients to work.

   •   CSA’s estimates of client hours worked were not verifiable because CSA did not receive
       timesheets or time records from employers.

COMPOSITION OF BOARD OF DIRECTORS

Section 676B(a)(1) of the CSBG Act requires that all CSBG agencies administer the CSBG
program “through a tripartite board that fully participates in the development, planning,
implementation, and evaluation of the program to serve low-income communities.” Section
676B(a)(2) requires that the board be composed to ensure that one-third of the members are
elected public officials or their representatives, no fewer than one-third of the members are
representatives of low-income individuals and families in the neighborhood served by the CSBG
program, and the remainder of the members are officials or members of business, industry, labor,
religious, law enforcement, education, or other major groups and interests in the community
served.

CSA’s board of directors did not comply with the CSBG Act requirement that one-third of the
members be elected public officials or their representatives. CSA’s board of directors serves as
the tripartite board, and 1 of the 15 positions has been vacant since March 2008. At the time of
our audit, only four members were elected public officials or their representatives instead of the
required five members.



                                                 5
RECOMMENDATIONS

We recommend that ACF consider the information presented in this report in assessing CSA’s
ability to operate its CSBG program in accordance with Federal regulations and in determining
whether CSA is appropriately managing and accounting for Recovery Act funds. We also
recommend that ACF obtain from CSA documentation supporting the allowability of $72,175 of
performance incentive awards and $58,466 of subsidized wages paid.

COMMUNITY SERVICES AGENCY COMMENTS

In written comments on our draft report, CSA provided information on actions that it had taken
since our review and additional information related to the findings:

   •   Regarding the finding related to performance incentive awards, CSA stated that it had
       retrieved from its archives the policy statements approved by the board of directors to
       support these awards.

   •   Regarding the finding related to subsidized wages, CSA stated that before payment of
       any invoices, CSA received employer information that included dates and hours worked
       for each subsidized employee. CSA also stated that this documentation was pursuant to
       CSA’s Wage Subsidy Agreement.

   •   Regarding the finding related to Recovery Act reporting, CSA said that we were
       inaccurate in stating that 15 persons whose wages were not funded by the Recovery Act
       were included in CSA’s Recovery Act report. CSA stated that it was instructed by the
       State agency to report all persons receiving a subsidy under any and all Recovery Act
       programs. CSA also stated that it is able to verify hours using employer invoices because
       the invoices include time periods and hours worked.

   •   Regarding the finding related to the composition of the board of directors, CSA stated
       that it had filled the vacant position.

CSA’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in CSA’s comments caused us to change our findings or our recommendation to ACF:

   •   During our audit, CSA did not provide documentation of approval of the incentive
       awards by the executive director or the board of directors.

   •   For support of subsidized wages, CSA provided only employer invoices. Although these
       invoices contained time periods and total hours worked, the invoices did not contain
       signatures of either individual employees or a responsible official. As a result, we do not
       consider the invoices sufficient for documenting the hours worked or the gross pay that
       each employee received.


                                                6
•   According to the State agency, only persons whose wages were subsidized by CSBG
    program funds made available under the Recovery Act were to be included in the
    Recovery Act report.




                                         7
APPENDIX
                                                                                                              Page 1 of2


 APPENDIX: COMMUNITY SERVICES AGENCY COMMENTS




Community S ~rvic~5 Ag ency

Cloyd Phillips - Exec utive Director



November 4. 2010


Lori A. Ahlstrand, Regional Inspector General for Aud it Services
Department of Health & Human SeNke~. Office of Inspector Gener<'l l
Office of Audit Services, Region IX
90. 7110 Street, Suit e 3-650
San Francisco, CA 94103


Dear Ms. Ahlstrand:

Plellse accept th is letter as Community Services Agency's ((SA's) response to report number A-09-10­
01010, Results of limited Scope Review at Community Services Agenq·. dated November 1, 2010.


Pe rfo rmam:e Ince ntive Awards

Since the OIG visit, (SA has retrieved from arch ives the documentation to support performance
incentive ilw.;Irds. This documentat ion inc ludes policy statements approved at the Board of Directors
meet ing on October 25, 2007, in compliance with 2 (FR part 230, Appendix B, section a.j. (SA has an
established plan to prov ide incentives as part of an overall compen5<ltion plan that is reasonab le and
consistent . In addition, all performance incentives "re approved by the Executive Director, which is
consistent with Agency policy requirement5, and approved by the Board of Directors. (SA is also
implementing addition,,1 steps to periodically have the Board of Directors rev iew the Employee
Incentive and Re tent ion Award Policies.

S u bsid ized Wages

Prior to payment of any invo ices, (SA received informati on from employers t hat included d<ltes and
hours worked for each subsidized employee. This documentation was pursuant to Section 2 of (SA's
Wage Subsidy Agreement, "...othertime records which support the gross pay that the Emp loyee
received dur ing the invoiced period." In addit ion, as per plan, CSA aud ited the invoices of at least 30%
of the cust omers t hat received subsidized W<lges by verifying against time sheets or payroll
documentation provided by employers.

PO Box   1 0 137


Emilil: cphillips@uilreno.o f9           WWw. cSilfenO.Ofg
                                                                                                            Page 2 of2




Recovery Act Reporting

Nvmbfiir Jobs Created. As perthe direction from our State (SSG Agency. (SA was instructed to include
in the Recovery Act report "II per.;ons receiving a subsidy under anyond all Recovery Act programs. It
is (SA's position that tht' OIG report is inaccur.;! te in stating that "1$ persons whose w<lges were not
funded by the Recovery Act" were included in (SA's Recovery Act report. While (SA cannot fully attest
without seeing the specific list of lS persons, it is our understanding that O IG is referring to (SA's
inc lusion of non-CSBG customers (who had wages subsid ized under a Oep<lrtment of Labor Recovery
Act program) in (SA's Recovery Act re port. 


Actual versus Estimated Hewn•. Due to the inherent lag in employer invoicing, in good fa ith, CSA 

relied on employment inform<ltion provided by employees to determ ine hours worked in <I reporting
period.

verification a/Estimates. CSA is able to ver ify hours based on informa tion provided by t he
employer. Employer invoices include time periods and hours worked for each subsidized employee.

Co mposition ofthe Board of Di rectors

After an extensive search for a quali fied and ab le Board member, the CSA Board of Directors filled this
va cant position at ih meeting on October 21, 1010.

If you have any quest ion5, ple<lse feel free t o cont<lct this office . Thank you for your t ime and 

considerat ion. 


Sincerely, 


Cloyd Phillips

Cloyd Ph illi ps
Executive Director



c(: Barbara Wa ll, (SA Board Chair
